<

^n

No?

FILED
JUN 0 2 2021
IN THE
SUPREME COURT OF THE UNITED STATES

ROBERTO MARTINEZ

— PETITIONER

(Your Name)
vs.
UNITED STATES OF AMERICA

_ RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

ELEVENTH CIRCUIT COURT HP APPEAT.fi

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
i

ROBERTO MARTINEZ

(Your Name)
FCI DANBURY, 33 £ PEMBROKE RD.

(Address)
DANBURY, CT 0681 1

(City, State, Zip Code)

(Phone Number)

RECEIVED
JUN - 9 2021
supreme'CnURT-nl*

4

QUESTION(S) PRESENTED

1. When a District Court vacates a sentence pursuant to the United States
Supreme Court Decision in RUTLEDGE v. UNITED STATES, 116 S.Ct 1246 , 134
L.ed. 2d 419, 517 U.S. 292 (1996). Is a Correction of the Defendants Judgment
and Commitment Order required.
2. Does the District Court1s failure to correct a Defendant's Judgment and
Commitment Order represent a deprivation of life and liberty as defined by
the 14th Amendment to the United States Constitution
3. Does the District Court's refusal to correct the Judgment and Commitment
order essentially create a double jeopardy? Multiple teirs of government
agencies have used and will use this information to deprive Martinez of his
Life and Liberty based on a count that was vacated through due process.

!i

LIST OF PARTIES

[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

7

CONCLUSION

7

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
i

APPENDIX F
i

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
RUTLEDGE V. UNITED STATES, 517 U.S. 292(1996)
UNITED STATES v. Martinez, 84-00499-CR-CQHN (S.D.F.L.)
UNITED STATES v. Martinez, 20-14580-BB, (2021, 11th Cir.)

UNITED STATES V. Serra, et al., 862 F.2d 877 (11th Cir. 1988) .
UNITED STATES v. Martinez, 02-101137-FF,

(11th Cir. 2021)

STATUTES AND RULES
Fed. R. Crim.P. 35
14th Amendment to the UNITED STATES .CONSTITUTION

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
•••

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
M For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[XL is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
X3- is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished. The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

. '4

to

r. •

JURISDICTION
[/^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 20,2021_______ „
[>d No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix _____ _
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------- -----, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
_ (date) on_!
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

.The following Constitutional and Statutory provisions are involved in this
Writ.
The 14th Amendment to the United States Constitution.
"Section 1: All persons born or naturalized in the United States and Subject
to the jurisdiction, ther or, are citizens of the state where they reside. No
State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; No shal any STate deprive any
person of life liberty, or property without due process of law; nor deny any
person within its jurisdiction the equal protection of the laws.

■i!

I

I

'STATEMENT OF THE CASE
A. CONVICTION, SENTENCE AND DIRECT APPEAL
i

, , , In 1985, a federal grand jury charged Roberto Martinez with engaging in a
pontinuing criminal enterprise ("CCE"), in violation of 21 U.S.C 848 (Count
3), Conspiracy to import methoqualone, in violation of 21 U.S.C 963 (Count
4),'. and traveling in interstate and foreign commerce with intent to carry on
unlawful activity, in violation of the Travel Act, 18 U.S.C. 1952 and 2
(Count 5).
'll
*
, A jury convicted Martinez on all three Counts in March of 1987. The District
Court then sentence Martinez to 35 Years of imprisonment as to Count 3 and
five^years of imprisonment as to Count 5 to run consecutively to each other
and to other sentences Martinez was serving, for a total of 40- year's
’
imprisonment.
The 11th Circuit Court of Appeals affirmed Martinez1's Convictions and
sentences on direct appeal. United States v. Serra, et al., 862 F.2d 877
(11th Cir. 1988)
VACATUR OF COUNT 4 (CONSPIRACY-TO IMPORT) ON REMAND
In 1990 Martinez moved for a sentence reduction under Rule 35 (old law).
Although he initially sought a discretionary reduction of his sentence, in
1997 he amended his motion to include a double jeopardy challenge based on .
Rutledge v. United States, 517 U.S. 292 (1996) (holding.that a conspiracy to
distribute controlled substances is a lesser included offense of a CCE
In 2001, the district court denied the motion as untimely and,
offense).
alternatively on the merits.
Martinez appealed, and in Appeal No. 02-10137, the 11th Circuit Court of
Appeals determined that the district court erred in finding the Martinez's
Rule 35 (b) motion was untimely. The Appellate Court observed that
Martinez's challenge under Rule 35 (b)
"sought mercy from the sentencing
court and did not challenge the legality of his sentences, and because it is
t;h|],district court's discretion to grant such a motion" (opinion at 4) . The
Appeals' court did not address the merits of Martinez's motion, noting that
"until the district court exercises is discretion, there is nothing before us
to review"(id.) Therefore, the Court vacated and remanded "for the district
court to address the merits of Martinez's Fed. R. Crim. P. 35 (b) motion"(id
at 4-5).
The Appellate Court next considered Martinez's argument that the district
court had erred in denying his motion for a sentence reduction under former
Rule 35 (a) because hi$ conspiracy -to-import conviction was a lesser included
offense to the CCE conviction and therefore illegal under Rutledge. The
Government conceded, and the Appeals Court agreed, that Martinez's
conspiracy- to-import conviction (Count 4) should be vacated. the appellate
court further held that the district court "need not resentence Martinez"
because "Martinez was never sentenced on the conspiracy count after the
district court found the the conspiracy count merged into the CCE" (Opinion
at 6). Ultimately, the Appellate Court remanded to t he district court with
instructions to "vacate the conspiracy conviction" (id.).
On August 17, 2006, the district court issued its order on mandate, The
district court ordered that "Roberto Martinez's Conspiracy Conviction is
vacated and Martinez's motion for reduction of sentence under Fed. R. Crim.
P. 35 (b) shall be heard on its merits . (DE 1017)

,,±n 2007, after a hearing where Martinez appeared pro se the district court
denied his Rule 35(b) motion for a discretionary reduction of his sentence.
Martinez Appeals this decision (Appeal No 07-13229), the 11th Circuit Court
of Appeals affirmed the district court's order in all respects (DE 1041). In
its recital of the procedural history, the Appeals court reiterated that the
district court had indeed "vacated Count 4 in 2006. (id at 3).
..In 2020 Martinez filed a pro se motion for compassionate release based on
the COVID 19 pandemic (DE 1045), which the district court denied because he
failed to present "extraordinary and compelling reasons" for release and the
18U.S.C. 3553(a) sentencing factors weighed against his release (DE 1049).
In,this opinion the court again referenced the vacated count 4 as a
aggravating factor weighing against Martinez. He has appealed this decision
however it has not been decided as of yet.
I | i

Martinez then filed a pro se motion on November 17,2020 to "Correct the
Judgment and Commitment Order" that is the subject of this writ. at the core
of Martinez's Motion to Correct was that the BOP is still listing the Vacated
Count 4 on his judgment and commitment order. As such they are using this
information to deny his application for home confinement due to the risks
presented by; COVID-19, his medical history and increased age. During his
incarceration this same Judgment and Commitment order has been used by the
Bureau of Prisons, the United States Parole Commission in determining his
eligibility for parole under the old law to which he was sentenced, This will
also ultimately be used by the probation department in determining the
conditions of his supervised release. The district court denied his motion
stating that Count 4 has already been vacated and no further action was
needed. Martinez then appealed this decision to the 11th Circuit Court of
Appeals arguing that the district courts failure to correct the Judgment and
Commitment order essential negates the fact that Count 4 was vacated. It will
continue to effect his life and liberty for a count that was vacated pursuant
to The Supreme Court Decision in Rutledge.
THIS INSTANT CASE
I As previously stated Martinez has been incarcerated since 1987. He has
recently beenigranted Parole on this case in July of 2021. The information
contained in his Judgement and Commitment Order has been used at multiple
points during his incarceration to deprive him of certain liberties such as
eligibility for placement in a Federal Prison Camp (the lowest of all prison
security levels in the Federal Bureau of Prisons.) This information has been
uspd,by the Bureau of Prisons to deny him eligibility for home confinement
when the COVID-19 pandemic was ravaging the Federal Prisons especially when ,
his advanced age and medical history place him at a substantially greater
risl^ for catastrophic health consequences if he were to contract COVID-19.
The |United States Parole Commission has used information found in the
Judgement and Commitment Order to deny him parole.
In all of these cases the
Government Agency/Entity involved specifically noted Counts 3,4 and 5 as
agrivating factors in denying Martinez these liberties.
|As Martinez begins a short period in halfway house and then his time on
federal supervised release this information contained in his. Judgement and
Commitment Order will be used to limit his freedom and liberties as he
interacts with the United States Probation Department. The Judgment and
Commitment order also reflects what is reported about a defendant on the
Natfpnal Criminal Information Center (NCIC) Database.
The information contained in a Court's Judgment and Commitment Order follows
a defendant throughout their incarceration and supervised release term.
In
short this information will likely cause law enforcement and court officials

.to atrribute the same crime twice to Martinez. This is at the very core of
concept of double jeopardy.

i

I

!
:

i

l

If
■I

!
;i
■|

-

.j!
I

h
i

!n
i

ijr

iI

!i!

il
I

I

!’■

.1
I

•REASONS FOR GRANTING THE PETITION
Martinez's Conspiracy conviction was finally vacated by the district court
after a protracted 9 year process that ultimately resulted in Conspiracy
conviction being vacated on order from the 11th Circuit Court of Appeals
relying on the United States Supreme Courts decision in Rutledge. By failing
to correct their Judgment and Commitment Order the District Court has
circumvented this court's decision in Rutledge and kept Count 4 active on
Martinez Judgment and Commitment Order. Essentially in the view of any person
or government agency reviewing Martinez's record will erroneously believe
that he was convicted on Count 4 . This goes as far as even effecting not
pnly which Halfway House (Community Corrections Center) a defendant may be
eligible for. Additionally it will effect the duration of halfway house a
defendant will be eligible.
The information contained in the Judgment and Commitment Order is a trusted,
official document from the courts and is relied on for far more than issuing
a incarceration order. This document is routinely used by the agencies
previously discussed and the court in making decisions that directly effect a
defendant's life and liberty.
In Martinez's case this document reflects that he has essentially been
convicted of the same crime twice in violation of double jeopardy clause.
This information is further used as aggravating and/or justifying reasons to
deny Martinez of life and liberty in opposition to the 14th Amendment.'of the
United States Constitution.
Essentially the lower court's erroneously seem to believe that the Judgment
and Commitment Order is kept in the bubble of influence of the courts. This
is not true. As Martinez has established the information contained in the
Judgment and Commitment Order is used by multiple government entities to make
decisions that directly effect a defendant's life ad liberty, This
information will continue to effect his life and liberty even after he is
released from BOP custody, and enters supervised release.
The failure of the district court to remove this vacated Count from the
Judgment and Commitment Order represents a direct violation of the 14th
Amendment's protection against deprivation of life and liberty without due
In' this case due process found that Martinez was not guilty of this
process.
In using
•Count. Yet, it is still used to deprive him of life and liberty,
this information to deny him home confinement and compassionate release this
information was used to place his life in immediate danger as related to
COVID-19. This is even more substantial when this Court considers that
Attorney General Barr specifically Identified FCI Danbury where Martinez is
incarcerated as a institution o great concern and ordered the BOP to remove
as many at risk inmates (like Martinez) as quickly as possible and place them
on home confinement. This decision by the Attorney General was
unprecedented, but reflects the great dangers faced by inmates like Martinez.
CONCLUSION
For the above reasons this writ of certiorari should be granted .
Respectfully Submitted,

IWfiAXa

Pfurs^

Roberto Martinez,
BOP# 11493-004
FCI Danbury
33 1/2 Pembroke Rd.

se

Danbury, CT 06811

1

I

!
•+!
.i
i

:
i
i>
i

l

1

l.

t

!
:
i

'l

i

